 Department of Health and Human Services

              OFFICE OF 

         INSPECTOR GENERAL 





PREVALENCE AND QUALIFICATIONS 

      OF NONPHYSICIANS 

       WHO PERFORMED 

 MEDICARE PHYSICIAN SERVICES





                     Daniel R. Levinson

                      Inspector General 


                       August 2009

                      OEI-09-06-00430

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E          S U M M A R Y


            OBJECTIVES
            For days that Medicare allows more than 24 hours of services billed by
            a single physician:

            1. Identify the services physicians bill to Medicare but do not perform
               personally.

            2. Assess the qualifications of nonphysicians who perform these
               services.


            BACKGROUND
            Medicare Part B pays for services that are billed by physicians but are
            performed by nonphysicians. These services often are called “incident
            to” services, or services provided under the “incident to” rule. “Incident
            to” services may be vulnerable to overutilization and may put
            beneficiaries at risk of receiving services that do not meet professionally
            recognized standards of care. Little is known about Medicare services
            performed “incident to” the professional services of a physician.

            Using Part B Medicare National Claims History data for the first
            quarter of 2007, we identified all days during which Medicare allowed
            services for physicians in a single day that exceeded 24 hours of
            physician worktime. We randomly selected 250 of these “physician-day”
            combinations and requested that the physicians identify who performed
            each service that Medicare allowed on the selected day(s). We asked the
            physicians to submit all relevant credentials for the nonphysicians they
            identified. Our contractor’s nurse-reviewers determined whether the
            nonphysicians were qualified to render the particular services. In
            making these determinations, the nurse-reviewers considered any
            relevant Medicare requirements, State laws and regulations, and the
            nurses’ own professional judgment as to whether the particular service
            generally falls within the standard competencies of the particular type
            of nonphysician provider who rendered the service.


            FINDINGS
            When Medicare allowed physicians more than 24 hours of services
            in a day, half of the services were not performed personally by a
            physician. In the first quarter of 2007, physicians who were allowed
            services that exceeded 24 hours of physician worktime in a day
            personally performed approximately half of these services.
            Nonphysicians performed the remaining services, which physicians may
E X E C U T I V E              S U     M M A R Y


                   have billed as “incident to” services. Medicare allowed $105 million for
                   approximately 934,000 services that the physicians personally
                   performed and approximately $85 million for approximately
                   990,000 services that nonphysicians personally performed during this
                   3-month period.

                   Nonphysicians performed almost two-thirds of the invasive services that
                   Medicare allowed the physicians. An invasive procedure involves entry
                   into the living body (as by incision or by insertion of an instrument).
                   Nonphysicians performed almost half of the noninvasive services that
                   Medicare allowed the physicians.
                   Unqualified nonphysicians performed 21 percent of the services
                   that physicians did not perform personally. In the first 3 months of
                   2007, Medicare allowed $12.6 million for approximately
                   210,000 services performed by unqualified nonphysicians. These
                   nonphysicians did not possess the necessary licenses or certifications,
                   had no verifiable credentials, or lacked the training to perform the
                   service. Nonphysicians with inappropriate qualifications performed
                   7 percent of the invasive services that physicians did not perform.


                   RECOMMENDATIONS
                   Services performed by unqualified nonphysicians represent a risk to
                   Medicare beneficiaries. State laws that require training, certification,
                   and licensure of nonphysicians help to ensure that patients receive safe
                   and quality care. However, among the physicians who billed Medicare
                   for more than 24 hours of services in a day, nonphysicians performed
                   half of the services billed, and unqualified nonphysicians performed one
                   in every five services not performed by a physician. These
                   nonphysicians were not practicing pursuant to State laws, State
                   regulations, or Medicare regulations; had no verifiable credentials;
                   and/or had not received the appropriate training to perform the services
                   (according to our reviewers’ professional judgment).

                   We are concerned about the potential scale of this problem. We cannot
                   report the extent to which all physicians who bill Medicare bill for
                   services performed by unqualified nonphysicians because our sample
                   included only those physicians who billed for more than 24 hours of
                   services in a day. The sample was a proxy for physicians who billed
                   “incident to.” Medicare claims data do not identify “incident to” services
                   as such. However, we have no reason to believe that the issues
                   identified in this review are unique to these physicians. For example,

 OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES               iii
E X E C U T I V E              S U     M M A R Y


                   physicians who bill Medicare for fewer than 24 hours of services in a
                   day might also bill for “incident to” services performed by unqualified
                   nonphysicians. Although our sample represents relatively few
                   physicians (3,165 of the 805,401 physicians who billed Medicare in the
                   first 3 months of 2007), the potential exists that this problem is more
                   widespread than we can report at this time.

                   Therefore, we recommend that the Centers for Medicare & Medicaid
                   Services (CMS):
                   1.	 Seek revisions to the “incident to” rule. The rule should require
                       that physicians who do not personally perform the services they
                       bill to Medicare ensure that no persons except:
                            a.	 licensed physicians personally perform the services or
                            b.	 nonphysicians who have the necessary training,
                                certification, and/or licensure, pursuant to State laws,
                                State regulations, and Medicare regulations personally
                                perform the services under the direct supervision of a
                                licensed physician.
                   2.	 Require physicians who bill services to Medicare that they do not
                       personally perform to identify the services on their Medicare
                       claims by using a service code modifier. The modifier would allow
                       CMS to monitor claims to ensure that physicians are billing for
                       services performed by nonphysicians with appropriate
                       qualifications.
                   3.	 Take appropriate action to address the claims for services that we
                       detected that:
                            a.	 were billed by physicians and performed by nonphysicians
                                that were, by definition, not “incident to” services and
                            b.	 were for rehabilitation therapy services performed by
                                nonphysicians who did not have the training of a therapist.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with two of our three recommendations. CMS did not
                   concur with our recommendation to create a service code modifier to
                   identify physicians’ claims for services that physicians do not personally
                   perform. CMS stated that “incidental services are often shared by
                   physicians and staff, making definition of a service not ‘personally

 OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                 iv
E X E C U T I V E                S U     M M A R Y

                  performed’ operationally difficult.” However, CMS stated it agrees with
                  our “underlying objective of increasing the available data on services
                  provided “incident to.”

                  We continue to believe that CMS should have the ability to identify and
                  monitor physicians’ claims for services that physicians bill, but do not
                  personally perform. This review identified unqualified nonphysicians
                  who furnished services to Medicare beneficiaries. We believe that the
                  lack of a service code modifier to identify physicians’ “incident to” claims
                  represents a significant vulnerability to the Medicare program. CMS
                  stated it would study the operational issues involved in implementing
                  the recommendation. We look forward to learning the specific steps
                  CMS plans to take with respect to this issue.

                  CMS provided technical comments in addition to its response to our
                  recommendations. If appropriate, we incorporated the technical
                  comments into the final report.




OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                 v
Δ   T A B L E                   O F           C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i




                  INTRODUCTION ........................................... 1




                  FINDINGS ................................................. 8

                            When Medicare allowed physicians more than 24 hours 

                            of services in a day, half of the services were not

                            performed personally by a physician . . . . . . . . . . . . . . . . . . . . . . . . 8 


                            Unqualified nonphysicians performed 21 percent

                            of the services that physicians did not perform personally . . . . . . 12 




                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

                            Agency Comments and Office of Inspector General Response . . . 19 




                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 

                            A: 	Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 


                            B: 	Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 


                            C: 	Selected Features of the Sampled “Physician-Days” . . . . . . . . 27 


                            D:	 Categories of Services That Medicare Allowed 

                                by Physicians/Nonphysicians . . . . . . . . . . . . . . . . . . . . . . . . . . 29 


                            E:	 Services Performed by Nonphysicians by Service Category 

                                and Nonphysician Qualifications . . . . . . . . . . . . . . . . . . . . . . . 30 


                            F: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31 




                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33 





OEI-09-06-00430         NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                               vi
Δ   I N T R O D U C T I O N

                  OBJECTIVES
                  For days that Medicare allows more than 24 hours of services billed by
                  a single physician:

                  1. Identify the services physicians bill to Medicare but do not perform
                      personally.

                  2. Assess the qualifications of nonphysicians who perform these
                      services.


                  BACKGROUND
                  “Incident to” Services
                  Medicare Part B pays for services that are billed by physicians but are
                  performed by nonphysician practitioners (hereinafter referred to as
                  “nonphysicians”). These services often are called “incident to” services,
                  or services provided under the “incident to” rule. Section 1861(s)(2)(A)
                  of the Social Security Act (the Act) defines Medicare coverage of services
                  and supplies performed “incident to” the professional services of a
                  physician. 1 2
                  “Incident to” services typically are performed by nonphysicians in a
                  physician’s office (whether it is located in a separate office suite or
                  institution). The Act defines these services as “. . . services and supplies
                  (including drugs and biologicals which are not usually self-administered
                  by the patient) furnished as incident to a physician’s professional
                  service, of kinds which are commonly furnished in physicians’ offices
                  and are commonly either rendered without charge or included in the
                  physicians’ bills.” Section 1861(s)(2) of the Act does not permit services
                  and supplies listed in their own benefit categories (except outpatient
                  rehabilitation therapy) to be billed “incident to.” 3
                  The “incident to” rule allows physicians to bill for services performed by
                  any personnel (licensed or unlicensed). Examples of nonphysicians
                  include physician assistants, nurses, medical technicians, and medical




                    1 42 U.S.C. § 1395x(s)(2)(A). 

                    2 In this context, “physicians” include medical doctors, doctors of osteopathy, doctors of

                  dental surgery, podiatrists, optometrists, and chiropractors. The Act, § 1861(r),
                  42 U.S.C § 1395x(r).
                    3 42 U.S.C. § 1395x(s)(2)(A).




OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                         1
I N T R O D        U C T      I O N

                    assistants. 4 The implementing regulations allow physicians’
                    reimbursement for services at the full physician fee schedule amount for
                    services provided by their staff if the services are:
                    •	 furnished to beneficiaries who are not inpatients of a hospital or
                      skilled nursing facility;
                    •	 commonly furnished in a physician’s office and are “an integral,
                      although incidental, part of the service of a physician or other
                      practitioner in the course of diagnosis or treatment of an injury or
                      illness;”
                    •	 included in a treatment plan for an injury or illness, where the
                      physician personally performs the initial service and is involved
                      actively in the course of treatment;
                    •	 “commonly furnished without charge or included in the bill of a
                      physician (or other practitioner);” and
                    •	 furnished under the direct supervision 5 of a physician
                      (42 CFR § 410.26(b)).

                    “Incident to” services must meet Medicare’s general criteria for medical
                    necessity, documentation, and quality of care. Section 1862(a)(1)(A) of
                    the Act states that no payment may be made for services that “are not
                    reasonable and necessary for the diagnosis or treatment of illness or
                    injury or to improve the functioning of a malformed body member.” 6
                    Section 1833(e) of the Act requires that providers furnish “such
                    information as may be necessary . . . to determine the amounts due” to
                    receive Medicare payment. 7
                    Medicare does not require identifiers on claims indicating that the
                    service was furnished “incident to.” Therefore, based on claims data
                    analysis, it is not possible to determine the extent to which physicians
                    are billing their services under “incident to.” In 1996, Medicare began a
                    2-year demonstration project in five States (Illinois, Maryland,


                      4 Some nonphysicians, such as physician assistants, are permitted to be paid
                    independently for services provided to patients at a lower rate than a physician. These are
                    not “incident to” types of services.
                       5 Direct supervision in the office setting means that the physician must be present in the
                    office suite and immediately available to furnish assistance and direction throughout the
                    performance of the procedure. It does not mean that the physician must be present in the
                    room when the procedure is performed (42 CFR § 410.32(b)(3)(ii)).
                      6 42 U.S.C. § 1395y(1)(A).
                      7 42 U.S.C. § 1935l(e).




 OEI-09-06-00430    NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                       2
I N T R O D        U C T      I O N

                    Michigan, Pennsylvania, and Texas) to identify “incident to” claims by
                    adding a “YR” modifier. Provider participation was voluntary, and the
                    Centers for Medicare & Medicaid Services (CMS) did not implement the
                    modifier nationwide. However, claims data from 1998 indicate that a
                    minimum of $75 million was allowed for “incident to” services in the five
                    States. In 2006, Medicare allowed $58.4 billion 8 for physician fee
                    schedule services under Part B. It is uncertain how much of this
                    amount was for “incident to” services.
                    Previous Work
                    The Office of Inspector General (OIG) has not conducted specific
                    reviews of “incident to” services. From 2002 to 2006, OIG issued a
                    series of reports on cardiac rehabilitation services, which addressed
                    physician supervision requirements when the services were furnished
                    as “incident to.” In 2006, OIG issued a memorandum report to CMS
                    that summarized OIG’s medical review of Medicare claims for
                    physical therapy billed by physicians. 9 We found that Medicare
                    should not have paid for approximately 90 percent of the services we
                    reviewed. In addition, our reviewers could not determine the skill
                    levels for most of the staff who rendered the services that physicians
                    had billed because of poor medical record documentation. However,
                    20 of the 32 physicians 10 we interviewed reported that someone other
                    than themselves performed the services they billed.
                    Scope
                    This review is limited to identifying services that physicians 11 bill to
                    Medicare but do not perform personally and assessing the
                    appropriateness of the qualifications of nonphysicians who perform
                    them. The physicians in our sample identified the nonphysicians who
                    personally performed the services and supplied the nonphysicians’
                    credentials. We determined whether the nonphysicians had all the
                    training, certifications, and licenses required by State laws, State
                    regulations, and/or Medicare regulations. We did not review patients’


                      8 “2007 Annual Report of the Boards of Trustees of the Federal Hospital Insurance and
                    Federal Supplementary Medical Insurance Trust Funds,” Boards of Trustees of the Federal
                    Hospital Insurance and Federal Supplementary Medical Insurance Trust Funds,
                    April 23, 2007.
                      9 “Physical Therapy Billed by Physicians,” OEI-09-02-00200, May 2006. 

                      10 We interviewed 32 of the 54 physicians in our sample. 

                      11 Our sample population is limited to physicians for whom Medicare allowed more than 

                    24 hours of services in a day. Medicare does not limit the services that physicians can bill
                    to Medicare in a single day based on the total time of the services.



 OEI-09-06-00430    NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                        3
I N T R O D        U C T      I O N

                    medical records. Therefore, we did not assess the medical necessity of
                    the services or the completeness of the medical record documentation.


                    METHODOLOGY
                    Using Part B Medicare National Claims History (NCH) data for the first
                    quarter of 2007, we identified all days during which Medicare allowed
                    services for physicians 12 in a single day that exceeded 24 hours of
                    physician worktime. We randomly selected 250 of these “physician-day”
                    combinations and requested that the physicians identify who performed
                    each service that Medicare allowed on the selected day(s). We asked the
                    physicians to submit all relevant credentials for the nonphysicians
                    whom they identified. Our contractor’s nurse-reviewers determined
                    whether the nonphysicians had all the training, certifications, and
                    licenses required by State laws, State regulations, and/or Medicare
                    regulations to perform the services billed. The following is a summary
                    of our methodology. For additional details, see Appendix A.
                    Sample
                    Sample definition. From NCH data for services rendered January
                    through March 2007, we created a population of “physician-days.” We
                    defined a “physician-day” as a single day (24 hours), per physician,
                    wherein Medicare allowed services that apparently exceeded 24 hours
                    of physician worktime. In the first quarter of 2007, Medicare allowed
                    claims for services from 3,165 physicians for a total of 18,403
                    “physician-days.” Medicare allowed $204,415,178 for these physicians’
                    claims. We selected our sample from this population.

                    Final sample. Our sample of 250 “physician-days” included
                    30,822 line-item claims for services that Medicare allowed for
                    221 physicians. Because our sample-unit was the unique combination
                    of physician and day, some physicians had more than 1 day of services
                    in our sample. Four of the two-hundred twenty-one physicians in our
                    sample were part of an active OIG investigation, so we removed them
                    from the final sample. Fifteen physicians did not respond to our
                    request for information prior to the deadline. We removed them from
                    the sample, and they are not included in our analyses. 13 Therefore, our


                      12 We excluded claims from doctors of dental surgery, podiatrists, optometrists, and
                    chiropractors.
                      13 Our review of these physicians’ reasons for not complying with our request for
                    information is ongoing. We will take appropriate action that may include referring the
                    physicians to CMS or to OIG’s Office of Investigations.



 OEI-09-06-00430    NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                  4
I N T R O D        U C T     I O N

                    final review sample consisted of 27,379 line-item claims allowed by
                    Medicare for 202 physicians on 228 “physician-days.”
                    Review Protocol
                    Data collection. We requested that each sampled physician logon to our
                    secure Web site and list who personally furnished each of the services
                    that Medicare allowed on the sampled day(s). We asked the physicians
                    to list all relevant licenses, certifications, and training (relevant to the
                    service performed by the nonphysician) for each nonphysician they
                    reported personally having performed the sampled services.

                    We requested that the physicians mail to us documentation to support
                    the information that they provided on the Web site. Our Web site
                    allowed the physicians to print and sign attestation forms that we
                    required the physicians to sign, attesting to the accuracy and
                    completeness of the information that they provided on the Web site. We
                    requested copies of all licenses, certifications, diplomas, and proof of
                    training for each nonphysician, physicians’ schedules of patient
                    appointments, and nonphysician hours for the sampled day(s).

                    Nonphysician-appropriateness determinations. We provided the
                    information submitted by the physicians to our contractor. Registered
                    nurses served as the reviewers and determined whether the
                    qualifications of the nonphysicians who performed the sampled services
                    were appropriate vis-à-vis the services that the nonphysicians
                    performed.

                    Nonphysicians in 29 States performed Medicare services for the
                    physicians in our sample. The nonphysicians included technicians,
                    nurses, licensed or certified assistants, and therapists. In addition,
                    some nonphysicians in our sample were not licensed or certified but
                    instead had received other formal medical training, on-the-job training,
                    or no formal medical training at all.




 OEI-09-06-00430    NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                  5
I N T R O D        U C T      I O N

                    In addition to Medicare regulation, 14 the reviewers based their decisions
                    on State laws and regulations. For each State, the reviewers researched
                    the State laws and regulations applicable to each nonphysician in our
                    sample who performed services in that State. For the services
                    performed by nonphysicians that are not addressed by State laws and
                    regulations, the reviewers researched the training that the
                    nonphysicians received and used their professional judgment to
                    determine whether the training addressed the nonphysician’s
                    competency to perform the service.

                    The reviewers deemed a nonphysician’s qualifications appropriate if the
                    nonphysician who performed the services had all training, certifications,
                    and licenses required by State laws, State regulations, and/or Medicare
                    regulations. The reviewers deemed the nonphysician’s qualifications
                    inappropriate if:
                    •	 the nonphysician performed the service without the licenses,
                      certifications, or training required by Medicare regulation; 15
                    •	 the nonphysician performed the service outside of his or her
                      profession’s scope of practice as defined by State laws and/or
                      regulations and the nonphysician lacked additional training
                      conferring competency to perform the service; and/or
                    •	 the physician did not provide adequate documentation to confirm
                      that the nonphysician’s credentials were valid.

                    Adverse actions. We determined whether the physicians in our sample
                    and the nonphysicians who personally furnished the sampled services
                    had been reprimanded (e.g., suspended license, revoked license, or
                    official reprimand) from a State licensing agency and/or had been
                    excluded from Federal health care programs. No physicians or
                    nonphysicians in our sample had active adverse actions that would have
                    precluded them from providing the services we reviewed. No physicians



                      14 The “incident to” rule allows physicians to bill for services performed by any personnel
                    (licensed or unlicensed). However, when a physician bills rehabilitation therapy services as
                    “incident to,” Medicare requires that the service and the person who furnishes the service
                    must meet the standards and conditions that apply to physical therapy and physical
                    therapists, except that a license to practice physical therapy in the State is not required
                    (42 CFR § 410.60(a)(3)(iii)). In addition, the “incident to” rule requires physicians (or other
                    authorized practitioners) to personally perform the initial services. Initial services billed by
                    physicians (or other authorized practitioners) but performed by nonphysicians are not
                    “incident to” services (42 CFR § 410.26(b)).
                      15 42 CFR §§ 410.60(a)(3)(iii), 410.26(b)).




 OEI-09-06-00430    NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                        6
I N T R O D        U C T       I O N

                  or nonphysicians in our sample were excluded from Federal health care
                  programs on the dates of service we reviewed.

                  Patient and nonphysician schedules. We requested that the physicians
                  submit their patient and nonphysician-staff schedules on the sampled
                  date(s) of service. We reviewed these schedules to determine how many
                  patients and staff the physicians had scheduled on the dates of service.

                  Analysis. We stored the information that we gathered from our secure
                  Web site in a database. The reviewers input their review decisions into
                  the same database. Using SAS software, we converted the database
                  into SAS-format datasets, reviewed the data for completeness and logic,
                  and analyzed the data. We used SUDAAN software to produce
                  confidence intervals for the projectable statistics.

                  Projectable statistics. All statistics in the findings section of this report
                  are projections to the total population of “physician-days” in the first
                  3 months of 2007. (See Appendix B for the confidence intervals for
                  selected statistics.) Appendix C describes features of the sample that
                  we did not project to the population and, therefore, these features
                  should not be extrapolated to any population other than the
                  202 physicians and 27,379 line-item claims for the sampled services.

                  Limitations. Our findings are limited to the physician population for
                  whom Medicare allowed services on “physician-days” in the first quarter
                  of 2007. The findings in this report should not be projected to all
                  physicians for whom Medicare allows services. Nor should our findings
                  be projected to all nonphysicians who perform services under the
                  auspices of physicians for whom Medicare allowed claims.

                  Standards

                  This study was conducted in accordance with the “Quality Standards for
                  Inspections” issued by the President’s Council on Integrity and
                  Efficiency and Executive Council on Integrity and Efficiency (now
                  Council of the Inspectors General on Integrity and Efficiency).




OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                    7
         Δ          F I N D I N G S

          When Medicare allowed physicians more than                           In the first 3 months of 2007,
       24 hours of services in a day, half of the services                     physicians for whom Medicare
                                                                               allowed services that exceeded
          were not performed personally by a physician
                                                                               24 hours of physician worktime in a
                                          day personally performed approximately half of these services
                                          (49 percent). Nonphysicians performed the remaining services
                                          (51 percent), which may have been “incident to” services, if the services
                                          met the requirements of section 1861(s)(2)(A) of the Act. Medicare
                                          allowed approximately $105 million for approximately 934,000 services
                                          that the physicians personally performed and approximately $85 million
                                          for approximately 990,000 services that the nonphysicians performed
                                          during these months. See Chart 1.


        CHART 1
 Who Performed
    the Services
                                                   Physicians’ Claims for Services
 When Medicare                               Medicare Allowed in the First Quarter of 2007
         Allowed                   $120
                                                            934,000
Physicians More
                                                            Services
Than 24 Hours of
                                   $100
Services in a Day                                                                                           990,000
                                                                                                            Services
                                    $80
                        Millions




                                    $60


                                    $40


                                    $20


                                   $-
                                                          Physicians                                      Nonphysicians
                                                                        Personally Performed By




                      Source: OIG analysis of 2007 Medicare NCH data and document review results, 2008.




              OEI-09-06-00430             NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                         8
         F   I N D I N G 
S

                                     The services that Medicare allowed for this population fall into the
                                     10 categories listed in Table 1. 16 The percentage of services that the
                                     physicians did not perform personally ranged from 12 percent to
                                     96 percent among 10 medical categories. With the exception of invasive
                                     services, these 10 categories correspond to the categories found in the
                                     American Medical Association’s (AMA) Current Procedural Terminology
                                     (CPT), 2007 edition. For purposes of this report, we removed the
                                     invasive services from their respective CPT categories and analyzed
                                     them separately.



        TABLE 1
                          Categories of Services That Medicare Allowed
    Categories of
Services and Who
   Performed the                                                                 Percentage of All Services That
                                                                                              Medicare Allowed        Percentage      Percentage
  Services When
                          Service Category                                                    for the Physicians    Performed by    Performed by
Medicare Allowed          (Service Description)                                  (Percentage of Service Category)     Physicians   Nonphysicians
 Physicians More
Than 24 Hours of          Invasive                                                                          34%            38%              62%
Services in a Day
                            -Routine Venipuncture                                                           37%              4%             96%

                            -Surgical Procedures                                                            31%            88%              12%

                            -Non-oral Drug Administration
                             and Chemotherapy                                                               29%            27%              73%

                            -Other Services                                                                  3%            63%              37%

                          Noninvasive                                                                       66%            54%              46%

                           -Evaluation and Management (E&M)                                                 23%            81%             19%

                           -Ophthalmology                                                                   20%            67%              33%

                           -Rehabilitation Therapy                                                          18%            13%              87%

                           -Cardiovascular                                                                  10%            52%              48%

                           -Diagnostic Radiology                                                             6%            60%              40%

                           -Other Noninvasive                                                               23%            47%              53%

                               Total                                                                       100%            49%              51%
                        Source: OIG analysis of document review results, 2008.




                                        16 For a listing of the categories of services with subcategories, see Appendix D.




             OEI-09-06-00430         NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                        9
F   I N D I N G        S


                      Nonphysicians performed almost two-thirds of the invasive services that
                      Medicare allowed the physicians
                      A service is “invasive” if it involves “entry into the living body (as by
                      incision or by insertion of an instrument).” 17 Invasive services
                      account for 34 percent of all services that Medicare allowed the
                      physicians, and nonphysicians performed 62 percent of them. These
                      invasive services ranged in complexity from routine venipuncture and
                      drug injections to cataract surgery and extensive foot surgery.
                      Nonphysicians performed almost all routine venipuncture and almost
                      three-quarters of the non-oral drug administration services and
                      chemotherapy. Nonphysicians performed 12 percent of the surgical
                      procedures.
                      Nonphysicians performed almost half of the noninvasive services that
                      Medicare allowed the physicians
                      Two-thirds of all the services that Medicare allowed the physicians were
                      noninvasive services, and nonphysicians performed 46 percent of them.
                      This includes evaluation and management (E&M), ophthalmology,
                      rehabilitation therapy, cardiovascular, diagnostic radiology, and other
                      noninvasive services such as diagnostic ultrasound and application of
                      splints or casts.

                      E&M services account for 23 percent of the services that Medicare allowed for
                      the physicians. Medicare allowed physicians the following types of E&M
                      services: office visits, inpatient services, consultations, and home visits.
                      These services typically involve at least one of three key components—
                      patient history, physical examination, and medical decisionmaking. E&M
                      services can vary based on these three key components, and
                      reimbursement is based on one of five levels. 18 E&M services also are
                      classified by the setting in which they occur (e.g., office, nursing facility, or
                      hospital) and by whether they are initial services or a repeat visit. 19
                      Finally, a consultation is a service provided by a physician whose opinion
                      or advice about a specific problem is requested by another physician or
                      other appropriate source. 20



                        17 MedlinePlus, a service of the U.S. National Library of Medicine and National
                      Institutes of Health. Available online at
                      http://www.nlm.nih.gov/medlineplus/mplusdictionary.html. Accessed on June 30, 2008.
                        18 AMA, “Current Procedural Terminology, Professional Edition,” 2007, pp. 6–8. 

                        19 Ibid, pp. 9–33. 

                        20 Ibid, p. 14. 





    OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                               10
F   I N D I N G        S

                      Ophthalmology services account for 20 percent of the services that
                      Medicare allowed for the physicians. Ophthalmology is the branch of
                      medicine dealing with the eye, including its anatomy, physiology, and
                      pathology. The service categories for ophthalmology include: eye
                      examinations, diagnostic imaging and eye photography, and other
                      services, such as ophthalmoscopy.

                      Rehabilitation therapy services account for 18 percent of the services that
                      Medicare allowed for the physicians. Rehabilitation therapy is the
                      treatment of functional limitations to prevent the onset and/or slow the
                      progression of physical impairments after an illness or injury. 21 These
                      services typically are included in a plan of care and performed by
                      physical therapists, occupational therapists, or speech-language
                      pathologists. The plan of care can include multiple treatment
                      modalities. Nonphysicians performed 87 percent of these services.

                      Most of the rehabilitation therapy services that Medicare allowed for
                      physicians were therapeutic exercises, massage therapy, ultrasound
                      therapy, therapeutic activities, and electrical stimulation. Other
                      services included neuromuscular reeducation and manual therapy. The
                      physicians were allowed relatively few physical and occupational
                      therapy evaluations.

                      Cardiovascular, diagnostic radiology, and other services account for the
                      remaining 39 percent of the services that Medicare allowed for the physicians.
                      Cardiovascular services account for 10 percent of the services that
                      Medicare allowed for the physicians and include cardiography and cardiac
                      catheterization. Diagnostic radiology services account for 6 percent of the
                      services that Medicare allowed for the physicians and include x-rays of the
                      chest, lower extremities, spine, and pelvis. Other noninvasive services
                      account for 23 percent of the services that Medicare allowed for the
                      physicians. Examples of these services include radiation oncology services,
                      diagnostic nuclear medicine services, and vascular studies.




                        21 For a more complete definition of physical therapy, see American Physical Therapy
                      Association, “Model Definition of Physical Therapy for State Practice Acts in the Guide to
                      Physical Therapy Practice,” 1997, chapter 1, p. 2.



    OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                      11
F   I N D I N G        S      


                                                           In the first 3 months of
           Unqualified nonphysicians performed
                                                           2007, Medicare allowed
       21 percent of the services that physicians          $12.6 million for approximately
                       did not perform personally          210,000 services performed by
                                                           unqualified nonphysicians. These
                      nonphysicians’ qualifications were not appropriate vis-à-vis the services
                      they performed. (See Table 2 on the following page.) 22
                      Our primary criteria for determining whether nonphysicians were
                      qualified to perform the services were State laws and regulations. In
                      addition, for rehabilitation therapy services and initial patient services,
                      we used the Medicare regulation that requires nonphysicians who
                      perform the services “incident to” to have received the training of a
                      therapist. 23
                      Because the “incident to” rule allows physicians to bill for services
                      performed by any personnel (licensed or unlicensed), we cannot report
                      that the services were paid in error by Medicare solely because they
                      were performed by unqualified nonphysicians. In addition, we did not
                      request physicians’ medical records and the reviewers did not review
                      them. The reviewers’ determinations are not based on medical
                      necessity, proper coding, or medical record documentation. The
                      reviewers’ determinations are not based on Medicare rules and
                      regulations, except the services that were (1) by definition not “incident
                      to” services 24 or (2) rehabilitation therapy performed by nonphysicians
                      who had not been trained as therapists. 25
                      Almost half of the services that were performed by unqualified
                      nonphysicians were performed by nonphysicians who did not possess
                      the required licenses or certifications according to State laws,
                      regulations, and/or Medicare rules. Nonphysicians with no verifiable
                      qualifications performed 25 percent of the services. We could not verify
                      the nonphysicians’ qualifications because the physicians did not provide
                      adequate documentation. Nonphysicians who lacked the necessary
                      training performed another 25 percent of the services. Based on our
                      reviewers’ professional judgment, the training program(s) did not
                      address the nonphysician’s competency to perform the service. Less


                        22 See Appendix E for a listing of nonphysician types and the services they performed.

                        23 42 CFR §§ 410.60(a)(3)(iii), 410.26(b). 

                        24 42 CFR § 410.26. 

                        25 42 CFR § 410.60(a)(3)(iii). 





    OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                     12
   F    I N D I N G       S


                      than 1 percent of the services were in violation of the “incident to” rule;
                      they were initial patient visits, which by definition cannot be “incident
                      to” a physician’s initial service. 26


           TABLE 2      Services Performed by Unqualified Nonphysicians
Services Performed
 by Nonphysicians       Reason the Nonphysicians Were Unqualified                     Percentage of Services
   When Medicare
                        Did not possess the required licenses and/or certifications                    49%
Allowed Physicians
       More Than 24
                        No verifiable qualifications                                                   25%
 Hours of Services
           in a Day     Lacked training necessary for the service                                      25%

                        “Incident to” violations                                                        1%

                              Total                                                                   100%

                      Source: OIG document review results, 2008.


                      Unqualified nonphysicians performed 7 percent of the invasive services that
                      physicians did not perform
                      Unqualified nonphysicians performed fewer than 1 in 10 invasive services.
                      See Chart 2 on the following page. Invasive services could pose more risk
                      to patients, especially complex procedures performed by unqualified
                      nonphysicians. The unqualified nonphysicians who performed invasive
                      services fall into three categories (items do not total 100 percent because of
                      rounding):

                      1. Nonphysicians who lacked the necessary training performed
                         54 percent of the services.

                      2. For 37 percent of the services, physicians did not submit
                         documentation to confirm that the nonphysicians’ qualifications were
                         valid.

                      3. Nonphysicians who did not possess appropriate licenses or
                         certification performed 8 percent of the services.




                        26 Ibid.




    OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                           13
F   I N D I N G                      S                  





          CHART 2
                                                                 Invasive and Noninvasive Services
          Services
     Performed by                                    1,400,000
       Physicians,
          Qualified                                  1,200,000                                             Performed by
    Nonphysicians,                                                                                         Unqualified
                                                                                                           Nonphysicians
                and
                      Projected Number of Services   1,000,000
       Unqualified
    Nonphysicians
                                                      800,000
                                                                                                           Performed by
                                                                                                           Qualified
                                                      600,000                                              Nonphysicians



                                                      400,000

                                                                                                           Performed by
                                                      200,000                                              Physicians


                                                            -
                                                                 Invasive                    Noninvasive
                                                                              Service Type

                      Source: OIG document review results, 2008.


                      Surgical procedures 27 are among the more complex invasive services
                      performed by unqualified nonphysicians. Surgical procedures
                      (excluding routine venipuncture) comprise 31 percent of the invasive
                      services performed by unqualified nonphysicians. These surgeries
                      ranged from arterial injections to complex skin surgery. For example,
                      medical assistants performed all of the micrographic surgical removal of
                      tumors not performed by physicians. Our reviewers found that these
                      types of procedures are “beyond the scope of usual medical assistant
                      curricula,” and the physicians provided no documentation that
                      confirmed the nonphysicians received additional training to qualify
                      them to perform the service. These services represent more than
                      9,000 surgeries that nonphysicians performed on Medicare beneficiaries
                      in the first 3 months of 2007.



                         27 We used AMA’s CPT definitions to determine which services in our sample were
                      surgeries. Surgeries range broadly in the CPT, from routine venipuncture to heart/lung
                      transplantation. However, the most complex surgeries performed by the nonphysicians in
                      our sample were skin grafts, skin tissue rearrangement, and removal of skin lesions. The
                      nonphysicians in our sample did not perform more complex surgeries, such as neurosurgery,
                      cardiovascular surgery, or orthopedic surgery.



    OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                 14
F   I N D I N G        S

                      Nonphysicians were not trained adequately to perform several other
                      skin surgeries. Unqualified nonphysicians performed 90 percent of
                      three types of the skin surgeries not performed by physicians: skin
                      grafts, skin tissue rearrangement, and complex skin wound repairs. 28
                      Nurses performing outside their scopes of practice performed the skin
                      grafts. Nurses and medical assistants, also performing outside their
                      scopes of practice, performed the tissue rearrangement and complex
                      wound repairs. Our reviewers found that these surgeries are “beyond
                      the usual training and education” of nurses and medical assistants, and
                      the physicians provided no documentation that confirmed these
                      nonphysicians received additional training to perform the services.
                      Altogether, these three types of skin surgeries represent more than
                      9,000 surgeries that nonphysicians performed on Medicare beneficiaries
                      in the first 3 months of 2007.

                      Unqualified nonphysicians performed 31 percent of the noninvasive
                      services that physicians did not perform
                      Among the categories of services (e.g., E&M, ophthalmology), the percent
                      of services performed by unqualified nonphysicians ranged from 15 percent
                      to 49 percent. (See Table 3 on the following page.) The unqualified
                      nonphysicians who performed invasive services fall into four categories:

                      1. Nonphysicians who did not possess appropriate licenses or
                         certification performed 56 percent of the services.

                      2. For 23 percent of the services, physicians did not submit
                         documentation to confirm that the nonphysicians’ qualifications were
                         valid.

                      3. Nonphysicians who lacked the necessary training performed
                         20 percent of the services.

                      4. One percent of the services did not meet the “incident to”
                         requirement because they were initial patient visits.




                        28 For a list of all surgeries that are included in these categories, see AMA, “Current
                      Procedural Terminology, Professional Edition,” 2007, pp. 58–63.



    OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                     15
F    I N D I N G          S       



              TABLE 3         Percentage of Services Performed by Nonphysicians:
        Categories of
                              Total, Qualified, and Unqualified
        Services That
    Medicare Allowed
                                                                                Nonphysicians
     Physicians That
Were Performed by             Service Category                          Total        Qualified   Unqualified
     Qualified Versus
                              Invasive                                  62%              93%             7%
           Unqualified
       Nonphysicians          Noninvasive                               46%              69%           31%


                               -E&M                                     19%              74%           26%

                               -Ophthalmology                           33%              63%           37%

                               -Rehabilitation Therapy                  87%              51%           49%

                               -Cardiovascular                          48%              85%           15%

                               -Diagnostic Radiology                    40%              84%           16%

                               -Other Noninvasive                       53%              84%           16%

                                  Total                                 51%              79%           21%
                           Source: OIG document review results, 2008.




                         Unqualified nonphysicians performed 26 percent of the E&M services
                         that physicians did not perform. These nonphysicians performed office
                         visits, inpatient services, consultations, and home visits. Office visits
                         represent 74 percent of all E&M services performed by unqualified
                         nonphysicians. Inpatient services, consultations, and home visits
                         represent 8 percent, 13 percent, and 5 percent, respectively.

                         Unqualified nonphysicians performed 37 percent of the ophthalmology
                         services that physicians did not perform. These nonphysicians
                         performed eye examinations, diagnostic imaging, eye photography, and
                         ophthalmoscopy. Diagnostic imaging represents 47 percent of the
                         ophthalmology services performed by unqualified nonphysicians. Eye
                         examinations represent 35 percent of all ophthalmology services
                         performed by unqualified nonphysicians. The remaining 18 percent of
                         services were eye photography and ophthalmoscopy services.

                         Unqualified nonphysicians performed 49 percent of the rehabilitation
                         therapy services that physicians did not perform. These nonphysicians
                         performed therapeutic exercises, massage therapy, ultrasound therapy,
                         therapeutic activities, and electrical stimulation. These five modalities
                         represent 75 percent of all rehabilitation therapy modalities performed

     OEI-09-06-00430     NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                        16
F   I N D I N G        S

                      by unqualified nonphysicians. Other rehabilitation therapy services
                      performed by unqualified nonphysicians include neuromuscular
                      reeducation, manual therapy, and evaluations.

                      Generally, State laws allow only physicians and licensed physical
                      therapists, occupational therapists, or speech-language pathologists and
                      licensed assistants to perform rehabilitation therapy. However, when a
                      physician bills the services as “incident to,” Medicare allows unlicensed
                      nonphysicians to perform rehabilitation therapy if the service and the
                      person who furnishes the service meet the standards and conditions
                      that apply to physical therapy and physical therapists, except that a
                      license to practice physical therapy in the State is not required. 29 One
                      nonphysician in our sample met this criterion. In addition to this
                      nonphysician, massage therapists, medical assistants, and physical
                      therapist assistants performed rehabilitation therapy services.




                        29 42 CFR § 410.60(a)(3)(iii).




    OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES             17
Δ   R E C O M M E N D A T I O N S



                  Services performed by unqualified nonphysicians represent a risk to
                  Medicare beneficiaries. State laws that require training, certification,
                  and licensure of nonphysicians help to ensure that patients receive safe
                  and quality care. However, among the physicians who billed Medicare
                  for more than 24 hours of services in a day, nonphysicians performed
                  half of the services billed, and unqualified nonphysicians performed one
                  in every five services not performed by a physician. These
                  nonphysicians were not practicing pursuant to State laws, State
                  regulations, or Medicare regulations; had no verifiable credentials;
                  and/or had not received the appropriate training to perform the services
                  (according to our reviewers’ professional judgment).
                  We are concerned about the potential scale of this problem. We cannot
                  report the extent to which all physicians who bill Medicare bill for
                  services performed by unqualified nonphysicians because our sample
                  included only those physicians who billed for more than 24 hours of
                  services in a day. The sample was a proxy for physicians who billed
                  “incident to.” Medicare claims data do not identify “incident to” services
                  as such. However, we have no reason to believe that the issues
                  identified in this review are unique to these physicians. For example,
                  physicians who bill Medicare for fewer than 24 hours of services in a
                  day might also bill for “incident to” services performed by unqualified
                  nonphysicians. Although our sample represents relatively few
                  physicians (3,165 of the 805,401 physicians who billed Medicare in the
                  first 3 months of 2007), the potential exists that this problem is more
                  widespread than we can report at this time.

                  Therefore, we recommend that CMS:
                  1.	 Seek revisions to the “incident to” rule. The rule should require
                      that physicians who do not personally perform the services they
                      bill to Medicare ensure that no persons except:
                           a.	 licensed physicians personally perform the services or
                           b.	 nonphysicians who have the necessary training,
                               certification, and/or licensure, pursuant to State laws,
                               State regulations, and Medicare regulations personally
                               perform the services under the direct supervision of a
                               licensed physician.
                  2.	 Require physicians who bill services to Medicare that they do not
                      personally perform to identify the services on their Medicare

OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                 18
E X E C U T I V E              S U     M M A R Y

                       claims by using a service code modifier. The modifier would allow
                       CMS to monitor claims to ensure that physicians are billing for
                       services performed by nonphysicians with appropriate
                       qualifications.
                   3.	 Take appropriate action to address the claims for services that we
                       detected that:
                            a.	 were billed by physicians and performed by nonphysicians
                                that were, by definition, not “incident to” services and
                            b.	 were for rehabilitation therapy services performed by
                                nonphysicians who did not have the training of a therapist.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with two of our three recommendations. For the full
                   text of CMS’s comments, see Appendix F.

                   CMS did not concur with our recommendation to create a service code
                   modifier to identify physicians’ claims for services that physicians do
                   not personally perform. CMS stated that “incidental services are often
                   shared by physicians and staff, making definition of a service not
                   “personally performed” operationally difficult.” However, CMS stated it
                   agrees with our “underlying objective of increasing the available data on
                   services provided “incident to.”

                   We continue to believe that CMS should have the ability to identify and
                   monitor physicians’ claims for services that physicians bill, but do not
                   personally perform. This review identified unqualified nonphysicians
                   who furnished services to Medicare beneficiaries. We believe that the
                   lack of a service code modifier to identify physicians’ “incident to” claims
                   represents a significant vulnerability to the Medicare program. CMS
                   stated it would study the operational issues involved in implementing
                   the recommendation. We look forward to learning the specific steps
                   CMS plans to take with respect to this issue.

                   CMS provided technical comments in addition to its response to our
                   recommendations. If appropriate, we incorporated the technical
                   comments into the final report.




 OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                19
Δ    A P P E N D I X ~ A


                      Detailed Methodology
                      Using Part B Medicare National Claims History (NCH) data for the first
                      quarter of 2007, we identified all days during which Medicare allowed
                      services for physicians 30 in a single day that exceeded 24 hours of
                      physician worktime. We randomly selected 250 of these “physician-day”
                      combinations and requested that the physicians identify who performed
                      each service that Medicare allowed on the selected day(s). We asked the
                      physicians to submit all relevant credentials for the nonphysicians
                      whom they identified. Our contractor’s nurse-reviewers determined
                      whether the nonphysicians had all the training, certifications, and
                      licenses as required by State laws, State regulations, and/or Medicare
                      regulations to perform the services billed. The following is a summary
                      of our methodology.
                      Sample
                      Sample definition. From NCH data for services rendered January
                      through March 2007, we created a population of “physician-days.” We
                      defined a “physician-day” as a single day (24 hours), per physician,
                      wherein Medicare allowed services that apparently exceeded 24 hours of
                      physician worktime. 31 Our method to select “physician-days” was as
                      follows:

                      1. We extracted from the NCH all physician claims that Medicare
                         allowed (excluding claims billed by all groups, institutions, or
                         suppliers) in the first quarter of 2007.

                      2. Using the 2007 Medicare Physician Fee Schedule, we assigned the
                         “intra-time” (physician time) component to each line-item claim.

                      3. We calculated the total time per physician, per day for each day that
                         Medicare allowed claims for services (excluding pathology/laboratory
                         services and major surgeries). 32


                        30 We excluded claims from doctors of dental surgery, podiatrists, optometrists, and
                      chiropractors.
                         31 We used the Medicare Physician Fee Schedule, which lists the average time associated
                      with each service that physicians can bill to Medicare. The fee schedule is available online
                      at http://www.cms.hhs.gov/PhysicianFeeSched/01_Overview.asp#TopOfPage. Accessed on
                      June 9, 2008.
                        32 Prior to our pretest of the review protocol (page 22), we excluded pathology and
                      laboratory services. Following the pretest, we concluded that physicians were unlikely to
                      bill major surgery services to Medicare as “incident to” services. The physicians in our
                      pretest who performed major surgery billed few or no “incident to” services.



    OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                     20
A   P P     E   N     D I    X       ~      A

                            4. We created a database that included one observation for each unique
                               combination of physician and day (“physician-day”) during which the
                               physician’s total intra-time (the physician’s personal time) was equal
                               to or exceeded 24 hours.

                            5. We selected a stratified random sample 33 of 250 “physician-days.”
                            6. We created a database of all claims Medicare allowed for the
                               physicians on the “physician-days.”

                            Sample population. In the first quarter of 2007, Medicare allowed
                            claims for services from 3,165 physicians for a total of
                            18,403 “physician-days.” Medicare allowed $204,415,178 for these
                            physicians’ claims. We selected our sample from this population. These
                            3,165 physicians are 0.4 percent of the 805,401 physicians who
                            submitted Medicare claims for services in the first 3 months of 2007.

                            Final sample. Our sample of 250 “physician-days” included
                            30,822 line-item claims for services that Medicare allowed for
                            221 physicians. Because our sample unit was the unique combination
                            of physician and day, some physicians had more than 1 day of services
                            in our sample. (See Table 4 on the following page.) Four of the
                            two-hundred twenty-one physicians in our sample were part of an
                            active Office of Inspector General (OIG) investigation, so we removed
                            them from the final sample. Fifteen physicians did not respond to our
                            request for information prior to the deadline, and we removed them
                            from the sample. 34 Therefore, our final review sample consisted of
                            27,379 line-item claims allowed by Medicare for 202 physicians on
                            228 “physician-days.”




                               33 Stratum 1 consisted of “physician-days” for which Medicare allowed a total of $10,000
                            or more for claims on the day. Stratum 2 consisted of “physician-days” for which Medicare
                            allowed a total of less than $10,000 for claims on the day. We selected 125 “physician-days”
                            from each stratum. Stratifying the sample in this way increased our precision when we
                            projected some statistics to the population, such as Medicare allowed amounts.
                              34 Our review of these physicians’ reasons for not complying with our information request
                            is ongoing. We will take appropriate action that may include referring the physicians to the
                            Centers for Medicare & Medicaid Services or to OIG’s Office of Investigations.



    OEI-09-06-00430         NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                   21
A   P P   E   N   D I   X       ~        A



                  Table 4           Sample of “Physician-Days” for First Quarter of 2007
     Days When Medicare
    Allowed the Physician
               More Than
                                    “Physician-Days”
     24 Hours in Services           (Per Physician)                      Total Physicians     Total “Physician-Days”
                                    1                                                   197                     197

                                    2                                                    20                      40

                                    3                                                     3                       9

                                    4                                                     1                       4

                                    Selected Sample                                     221                     250
                                        Physicians Under
                                        Investigation                                     4                       4
                                        Removed
                                    Final Sample                                        217                     246

                                        Non-Respondents
                                                                                         15                      18
                                        Removed

                                    Final Review Sample                                 202                     228

                                Source: OIG analysis of 2007 Medicare NCH data, 2008.


                            Review Protocol
                            Data collection. We requested that each sampled physician logon to our
                            secure Web site and list who personally furnished each of the services
                            that Medicare allowed on the sampled day(s). We asked the physicians
                            to list all relevant licenses, certifications, and training (relevant to the
                            service performed by the nonphysician) for each nonphysician whom
                            they reported as personally having performed the sampled services.

                            We requested that the physicians mail to us documentation to support
                            the information that they provided on the Web site. Our Web site
                            allowed the physicians to print and sign attestation forms, attesting to
                            the accuracy and completeness of the information they provided us via
                            the Web site. We requested copies of all licenses, certifications,
                            diplomas, and proof of training for each nonphysician. We requested
                            copies of the physicians’ schedules of patient appointments and
                            nonphysician hours for the sampled day(s).




      OEI-09-06-00430       NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                             22
 A   P   P E N D     I X        ~       A


                  Nonphysician-appropriateness determinations. We provided the
                  information submitted by the physicians to our contractor. Registered
                  nurses served as the reviewers and determined whether the
                  qualifications of the nonphysicians who performed the sampled services
                  were appropriate vis-à-vis the services that the nonphysicians
                  performed.

                  Nonphysicians in 29 States performed Medicare services for the
                  physicians in our sample. The nonphysicians included technicians,
                  nurses, licensed or certified assistants, and therapists. In addition,
                  some nonphysicians in our sample were not licensed or certified but
                  instead had received other formal medical training, on-the-job training,
                  or no formal medical training at all.

                  In addition to Medicare regulation, 35 the reviewers based their decisions
                  on State laws and regulations. For each State, the reviewers researched
                  the State laws and regulations applicable to each nonphysician in our
                  sample who performed services in that State. For the services
                  performed by nonphysicians that are not addressed by State laws and
                  regulations, the reviewers researched the training that the
                  nonphysicians received and used their professional judgment to
                  determine whether the training addressed the nonphysician’s
                  competency to perform the service.

                  The reviewers deemed a nonphysician’s qualifications appropriate if the
                  nonphysician who performed the services had all the training,
                  certifications, and licenses, required by State laws, State regulations,
                  and/or Medicare regulations. The reviewers deemed the nonphysician’s
                  qualifications inappropriate if:
                  •	 the nonphysician performed the service without the licenses,
                    certifications, or training required by Medicare regulation; 36
                  •	 the nonphysician performed the service outside of his or her
                    profession’s scope of practice as defined by State laws and/or
                    regulations and additional training that the nonphysician attended


                     35 The “incident to” rule allows physicians to bill for services performed by any personnel
                  (licensed or unlicensed). However, when a physician bills rehabilitation therapy services as
                  “incident to,” Medicare requires that unlicensed nonphysicians who perform the services
                  have received the training of a licensed therapist (42 CFR § 410.60(a)(3)(iii)). In addition,
                  the “incident to” rule requires the physician to personally perform the initial service. Initial
                  services billed by physicians but performed by nonphysicians are not “incident to” services
                  (42 CFR § 410.26(b)).
                    36 42 CFR §§ 410.60(a)(3)(iii), 410.26(b)).




OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                      23
A   P   P E N D       I X     ~      A

                        did not address the nonphysician’s competency to perform the
                        service; and/or
                      •	 the physician did not provide adequate documentation to confirm
                        that the nonphysician’s credentials were valid.

                      Adverse actions. We determined whether the physicians in our sample
                      and the nonphysicians who personally furnished the sampled services
                      had been reprimanded (e.g., suspended license, revoked license, or
                      official reprimand) by a State licensing agency and/or had been excluded
                      from Federal health care programs. We researched each physician and
                      nonphysician using the Healthcare Integrity and Protection Data Bank
                      and OIG’s Exclusions Database. We focused on the physicians’ and
                      nonphysicians’ status on the date during which they furnished the
                      sampled services. However, we reviewed all entries for the physicians
                      and nonphysicians in both databases, regardless of the dates of the
                      adverse action. To the extent that they are listed in either of these two
                      databases, we noted all criminal convictions.

                      No physicians or nonphysicians in our sample had active adverse
                      actions that would have precluded them from providing the sampled
                      services. No physicians or nonphysicians in our sample were excluded
                      from Federal health care programs on the dates of service we reviewed.

                      Patient and nonphysician schedules. We requested that the physicians
                      submit their patient and nonphysician-staff schedules on the sampled
                      date(s) of service. We reviewed these schedules to determine how many
                      patients and staff the physicians had scheduled on the same day.

                      Analysis. We stored the information that we gathered from our secure
                      Web site in a database. The reviewers input their review decisions into
                      the same database. Using SAS software, we converted the database
                      into SAS-format datasets and reviewed the data for completeness and
                      logic. We analyzed the data using SAS. Finally, we used SUDAAN
                      software to produce confidence intervals for the projectable statistics.

                      Projectable statistics. All statistics in the findings section of this report
                      are projections to the total population of “physician-days” in the first
                      3 months of 2007. Appendix B includes the confidence intervals for
                      selected statistics. Appendix C describes features of the sample that we
                      did not project to the population and, therefore, these features should
                      not be extrapolated to any population other than the 202 physicians and
                      27,379 line-item claims for the sampled services.




    OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                 24
A   P   P E N D       I X     ~      A

                      Limitations. The findings in this report about the physicians,
                      nonphysicians, and the services that they performed are confined within
                      the context of “physician-days” (the unique combination of physician
                      and day in the first 3 months of 2007 during which Medicare allowed
                      services for the physician who apparently exceeded 24 hours of
                      physician worktime). We used “physician-days” to create a population
                      of Medicare “incident to” services.

                      Therefore, our findings are limited to the physician population for whom
                      Medicare allowed services on “physician-days” in the first quarter of
                      2007. The findings in this report should not be projected to all
                      physicians for whom Medicare allows services. Nor should our findings
                      be projected to all nonphysicians who perform services under the
                      auspices of physicians for whom Medicare allowed claims.




    OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES            25
      Δ           A P P E N D I X ~ B



Confidence Intervals
                                                                                                                                                95-Percent
Statistic                                                                                                 Point Estimate
                                                                                                                                        Confidence Interval

Physicians personally performed 49 percent of the Medicare services that they were
                                                                                                                      49%                       43% to 54%
allowed in the first quarter of 2007


Medicare allowed $105 million for services that the physicians personally performed                         $104,822,245        $91,570,910 to $118,073,580


Medicare allowed approximately 934,000 services that the physicians personally performed                          934,388               821,075 to 104,7702


Medicare allowed $85 million for services that the nonphysicians personally performed                        $84,593,424        $62,110,148 to $107,076,700


Medicare allowed approximately 990,000 services that the nonphysicians personally
                                                                                                                  990,457              835,268 to 1,145,646
performed

Nonphysicians performed almost two-thirds of the invasive services that Medicare allowed
                                                                                                                      62%                       52% to 72%
the physicians

Nonphysicians performed almost half of the noninvasive services                                                       46%                       40% to 52%

Nonphysicians with inappropriate qualifications performed 21 percent of the services that
                                                                                                                      21%                       15% to 27%
physicians did not perform

In the first 3 months of 2007, Medicare allowed $12.6 million performed by nonphysicians
                                                                                                             $12,561,845          $8,768,913 to $ 16,354,777
with inappropriate qualifications

In the first 3 months of 2007, Medicare allowed approximately 210,000 services performed
                                                                                                                  209,773                146,337 to 273,210
by nonphysicians with inappropriate qualifications

Nonphysicians with inappropriate qualifications performed 7 percent of the invasive services
                                                                                                                        7%                       4% to 11%
that physicians did not perform

Nonphysicians with inappropriate qualifications performed 31 percent of the noninvasive
                                                                                                                      31%                       23% to 39%
services that physicians did not perform

Reason the Qualifications Were Inappropriate
   Did not possess the required licenses and/or certifications                                                        49%                       34% to 64%
  No verifiable qualifications                                                                                        25%                       14% to 36%
  Lacked training necessary for the service                                                                           25%                       14% to 35%
  “Incident to” violations                                                                                              1%                       0.1% to 2%

Source: Office of Inspector General analysis of 2007 Medicare National Claims History data and document review results, 2008.




                   OEI-09-06-00430            NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                             26
 Δ                 A P P E N D I X ~ C



Selected Features of the Sampled “Physician-Days”
All “Physician-Days”
                                                                        N                    Mean            Median        Minimum           Maximum
(228 “Physician-Days,” 202 Physicians)

  Services                                                        27,379                       120               111                 9              583

  Hours                                                             8,351                        37                31               24              157

  Nonphysicians                                                     1,006                         7                 4                0              67

  Beneficiaries                                                   10,115                         44                35                4              282

  Services Performed by Physicians                                13,854                         64                53                1              394

  Services Performed by Nonphysicians                             13,525                         59                45                0              405

  Percent of Services Performed by
                                                                                               43%              43%                0%           100%
  Nonphysicians

  Medicare Allowed Amount                                     $2,238,009                    $9,816            $9,938             $276         $45,055

“Physician-Days” During Which
Nonphysicians and Physicians
                                                                        N                    Mean            Median        Minimum           Maximum
Performed the Services
(166 “Physician-Days”, 145 Physicians)

  Services                                                        22,088                       133               120                 9              583

   Hours                                                            6,347                        38                31               24              157

   Nonphysicians                                                    1,006                         8                 5                2              67

   Beneficiaries                                                    8,145                        49                37                4              282

  Services Performed by Physicians                                  8,563                        52                37                0              394

  Services Performed by Nonphysicians                             13,525                         82                67                1              405

  Percentage of Services Performed by
                                                                                               59%              61%              0.4%           100%
  Nonphysicians

  Medicare Allowed Amount                                     $1,601,106                $9,645.22             $9,412             $276         $45,055

All “Physician-Days” During Which
Physicians Performed All Services                                       N                    Mean            Median        Minimum           Maximum
(62 “Physician-Days”, 58 Physicians*)

  Services                                                          5,291                        85                82               10              250

  Hours                                                             2,003                        32                29               24              73

  Beneficiaries                                                     1,970                        32                28                5              111

  Medicare Allowed Amount                                      $636,903                   $10,273           $10,032            $4,272         $29,543

*One physician in our sample personally performed all of the services that Medicare allowed on 2 days. On the third day, the physician and
nonphysicians performed the services that Medicare allowed.




          OEI-09-06-00430            NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                                   27
   A    P     P E N D            I X         ~        C        





Selected Features of the Sampled “Physician-Days” (continued)
All “Physician-Days”
                                                                             N         Mean           Median        Maximum      Minimum
(228 “Physician-Days,” 202 Physicians)
   Patients on “Physician-Days”
                                                                       17,171              87               46           3,706         3
   (according to the physicians’ schedules)
   Staff of “Physician-Days”
                                                                          204              10                7              66         1
   (according to the physicians’ schedules)
                                                             Percentage of
Top Five Physician Specialties
                                                          “Physician-Days”

   Ophthalmology                                                         24%

   Cardiology                                                            15%

   Dermatology                                                           13%

   Internal Medicine                                                       7%

   Radiation Oncology                                                      6%

Source: Office of Inspector General analysis of 2007 Medicare National Claims History data and document review results, 2008.




            OEI-09-06-00430          NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                          28
     Δ             A P P E N D I X ~ D




  Categories of Services That Medicare Allowed by Physicians/Nonphysicians


                                                                    Percentage of All Services That                    Percentage        Percentage
  Service Category                                              Medicare Allowed for the Physicians                  Performed by      Performed by
  (Service Description)                                              (Percentage of Service Category)                  Physicians     Nonphysicians

  Invasive                                                                                         34%                          38%            62%

    -Routine Venipuncture                                                                          37%                          4%             96%

    -Surgical Procedures                                                                           31%                          88%            12%

    -Non-Oral Drug Administration
     and Chemotherapy                                                                              29%                          27%            73%

    -Other Services                                                                                  3%                         63%            37%

  Noninvasive                                                                                      66%                          54%            46%

   -Evaluation and Management                                                                      23%                          81%            19%

     -Office Visits                                                                                73%                          82%            18%

     -Inpatient                                                                                    18%                          76%            24%

     -Consultations                                                                                  8%                         90%            10%

     -Home Visits                                                                                    1%                         64%            36%

   -Ophthalmology*                                                                                  20%                         67%            33%

     -Eye Examinations                                                                             69%                          73%            27%

     -Diagnostic Imagining and Eye Photography                                                     26%                          54%            46%

     -Other Services                                                                                 4%                         65%            35%

   -Rehabilitation Therapy                                                                         18%                          13%            87%

     -Therapeutic Exercises, Massage Therapy,
      Ultrasound Therapy, Therapeutic Activities,
      and Electrical Stimulation.                                                                  73%                          10%           90%

     -Physical and Occupational
      Therapy Evaluations                                                                            1%                         19%            81%

     -Other Services                                                                               26%                          22%            78%

   -Cardiovascular                                                                                 10%                          52%            48%

   -Diagnostic Radiology                                                                             6%                         60%            40%

   -Other Noninvasive                                                                              23%                          47%            53%

    Total                                                                                         100%                          49%            51%
Source: Office of Inspector General analysis of 2007 Medicare National Claims History data and document review results, 2008.
*Row does not total 100 percent because of rounding.


                  OEI-09-06-00430          NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                           29
        Δ
        A P
                      AP EP NP DE IN X D I ~ X ~A E




   Services Performed by Nonphysicians by Service Category and Nonphysician Qualifications


                                                        Formal Medical Training*                                             No Formal Medical Training

                                                               Licensed or                                 Other
                                                                  Certified                             Medical        On-The-Job            No Relevant
  Service Category          Technicians         Nurses          Assistants         Therapists           Training          Training         Qualifications**

  Invasive                            40%          30%                  15%                <1%               <1%                11%                         4%

  Noninvasive                         39%            8%                 17%                25%                2%                  2%                        9%

   -Evaluation and
    Management                        10%          46%                  39%                 2%               <1%                  3%                      <1%

   -Ophthalmology                     43%          <1%                  15%                 0%                5%                <1%                       35%

   -Rehabilitation
    Therapy                           14%            4%                 21%                62%                0%                  0%                        2%
   -Cardiovascular                    61%          11%                  15%                 2%                5%                  4%                        6%
   -Diagnostic
    Radiology                         87%           0%                    8%                0%                3%                  0%                        2%

   -Other
    Noninvasive                       62%            5%                   6%               13%                1%                  5%                        9%

      Total                           39%          17%                  16%                15%                1%                  6%                        7%
*Technicians include phlebotomists and medical sonographers. Nurses include registered nurses and nurse practitioners. Licensed or certified assistants
include physician assistants and medical assistants. Therapists include physical therapists or massage therapists. Nonphysicians with other medical training
include paramedics.
**Includes nonphysicians for whom physicians did not submit documentation to confirm their qualifications.
Rows do not total 100 percent because of rounding and/or some services were performed by two nonphysicians simultaneously.
Source: Office of Inspector General analysis of 2007 Medicare National Claims History data and document review results, 2008.




               OEI-09-06-00430              NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                                  30 

         A P PEN 0                                        x        F


                                          AGENCY COMMENTS



         (:5~
           tit.
           .sI"'",s\tItVlCf'.r0t<t,




                                          DEPARTMENT OF HEALTH & HUMAN SERVICES                              Centers for Medicare & Medicaid Services


                                                                                                             200 IndependencaAvenue SW

                                                                         MAY '21 2009                        Washington; PC 20201



                                                                                                                                ('   ~
                                                                                                                                     ("~
                                                                                                                                     co;>
                                                                                                                                     .~


                                                                                                                                (    :'X      '0
                                                                                                                      C'l"
                                                                                                                                     ~
                                                                                                                                     ."",
                                                                                                                                              '1"1
                               DATE:                                                                                  -......
                                                                                                                      rll(

                                                                                                                      ,.,)-
                                                                                                                      ~-
                                                                                                                                ~    N
                                                                                                                                     C!"
                                                                                                                                              .")
                                                                                                                                               '1
                                                                                                                      .,:.
                              TO:                 Daniel R. Levinson
                                                                                                                                                "..
                                                                                                                      ;.-            ':0:'3
                                                                                                                      ,-             :7'
                                                  Inspector General
                                              ~X~t-
                                                                                                                                      ..
                                                           Frizze~
                                                                                                                                     (!1
                               FROM:              Charlene                                                                           C:}

                                                  Acting Administrator                                                                                f~

                              SUBJECT:           Office of Inspector General's Draft Report: "Prevalence and Qualifications of
                                                 Nonphysicians Who Performed Medicare Physician Serviccs" (OEI-09-06-00430)


                              Thank you for the opportunity to review and commenlon the Office oflnspector General's
                              (OIG) draft report entitled, "Prevalence and Quaiificatlons'ofNonphysiGians Who Performed
                              Medicare Physician Services."

                              The Centers foJ' Medicare & Medicaid Services CCMS)appreciatesihe tlmeartd resour.ees OIG
                              has invested to' research and report on this issue. Medlcarehas covered services "incident to" the
                              services of physicians sinc-e the beginning of the Medicare program in 1965, under section
                              186 I(s)(2)(A) of the Social Security Act (the Acf).

                             Using Part B Medicare claims data for the first quarter of2007, the OIG identifi,ed all di\ys
                             during which Medicare allowed services for physioians in a single day exceeded 24hol\l's of
                             physician work time. These seJyices represented about $190 million in allowed charges. About
                             one half of these services were not personally performed by a physiDian. Of the allowed serVices
                             that were not performed by physicians, 21 percent were performed by staff the OIG detined tobe
                             unqualified. orG found that such unqualified nonphysicia.ns performed 37 percent of the
                             ophthalmology sei"Vices (primarily diagnostic imaging and eye examinations)that were furnished
                             by nonphysicians. Also, 49 percent of rehabilitation therapy services performed by
                             nonphysicians were furnished by staff (including primarily therapeutic exercise, massage
                             therapy, ultrasound therapy, therapeutic activities, and electrical stimulation) thatthe OlG found
                             to be unqualified.

                             The OlG made the following recommendations:

                             om Recommendation
                             Seek revisions to the "incident to" rule. The nile should require that physicians who do not
                             personally perform the.services they bill to Medicare ensure that no persons except:

                                      •   licensed physicians personally perform the services or




o E1·09·0 6·0 0430                        NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                                      31
A   P   P E N D              I X       ~       F       





                      Page 2 - Daniel R. Levinson


                         •   nonphysicians who have the necessary training, certification, andfor licensun:, pursuant
                             to State laws, State regulations. and Medicare regulations personally perform the services
                             under the direct supervision of a licensed physician.

                      CMS Response

                      We concur with the recommendation. CMS is currently in the process of clarifying the manual
                      policies relative to services incident to physicians' services. We will provide improved guidance
                      for documenting the qualifications of the person performing services billed to Medicare by
                      physicians and those nonphysician practitioners who may bill services "incident to" their
                      services.

                      OIG Recommendation

                      Require physicians who bill for services that they do not personally perform to identify the
                      services on their Medicare claims by using a service code modifier. The modifier would allow
                      CMS to monitor claims to ensure that physicians are billing for services performed by
                      non physicians with appropriate qualifications.

                      CMS Response

                      We non-concur with this recommendation as it is currently structurcd, not because we disagree
                      with its undcrlying objectivc of increasing the available data on services provided "incident to".
                      but because incidental services are ollcn shared by physicians and staff, making definition of a
                      service not "personally pCrfOffiled" operationally difficult. CMS will study the operational
                      issues involved in adding code modifiers to services furnished exclusively by stafT other than the
                      physician identified as the rendering provider.

                      OIG Recommendation

                      Take appropriate action to address the claims that we detected that were bilkd by pbysicians:
                      a. and performed by nonphysieians who were, by definition, nOI "incident to" services and
                      b. for rehabilitation therapy services performed by nonphysieians who did not have the tmining
                      of a therapist.

                      CMS Response

                      We concur with tbis recommendation. eMS will sbare tbc OIG report and any additional claim
                      infonTlation received from the OIG with the Medicare AdminiSlnllive Contractors (MACs).
                      CMS will instruct the MACs to consider the issues identified in this report and the additional
                      claim information when prioritizing their medical review strategies or other interventions.

                      Thank you again for the opportunity to review tbis report. We appreciate tbe OIG's efforts on
                      this study and look forward to working with them on other issues in the futllre.




    OEI-09-06-00430          NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES                                       32
A   P   P E N D       I X     ~      F
Δ       A C K N O W L E D G M E N T S




                      This report was prepared under the direction of Timothy S. Brady, 

                      Regional Inspector General for Evaluation and Inspections in the 

                      San Francisco regional office, and Deborah W. Harvey, Deputy Regional 

                      Inspector General.


                      Steven Zerebecki served as the team leader for this study. Other 

                      principal Office of Evaluation and Inspections staff from the

                      San Francisco regional office who contributed to the report include 

                      Veronica Gonzalez, Scott Hutchison, and Marcia Wong; central office 

                      staff who contributed include Robert Gibbons, Doris Jackson, and Rita 

                      Wurm. 





    OEI-09-06-00430   NONPHYSICIANS WHO PERFORMED MEDICARE PHYSICIAN SERVICES            33
